No. 19-

In the
intpretne Court of the Ziliniteb tateo

NOEL L. SMITH,
Petitioner,
v.

DIANE SMITH CARUSOS,
as Heir at Law to the Estate of
Dorothy Lang Smith, Deceased,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Second Circuit

PETITION FOR WRIT OF CERTIORARI

NOEL L. SMITH, M.D.
PETITIONER PRO SE
325 BROADWAY
SUITE 204
NEW YORK, NY 10007
(212) 385-3736

APRIL 11, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

•

BOSTON, MASSACHUSETTS

1

QUESTIONS PRESENTED
Does a U.S. District Court have subject-matter
jurisdiction to grant a motion that admittedly has
never been served?
Does a U.S. Court of Appeals have subjectmatter jurisdiction to grant an order without any
rational ground or explanation?
Does a U.S.D.C. have subject-matter jurisdiction
to order that the proceeding be transferred to a state
court after having determined that it should be to
another federal court?
Can a U.S.D.C. issue sua sponte a (remand)
order after about 6 months have passed following the
service of Notice of Removal in egregious violation of
28 U.S. Code § 1447(c) imposing the deadline of 30
days only?
Can a U.S.D.C. fake on its order that there was
a motion, while admittedly no motion had been served,
hence existed, and grant it without any rational
explanation, and call it a Remand Order to evade the
appellate control of the U.S.C.A. under 28 U.S. Code
§ 1446(a)?
Can a U.S.D.C. cheat on litigants by intentionally making conclusory or false findings of fact to
reach unjust conclusions of law, and as such escape
appellate control by higher courts being generally
limited to correct application of legal principles?
Can the U.S.D.C. and/or the USCA2 use King
Henry VIII's Judicial Organized Crime method to
commit felonies or injustice by FAKE orders under
color of law?

ii

RULE 29.6 STATEMENT
Appellant-Petitioner Noel L. Smith, M.D., is an
individual, having no stocks for any private or publicly
traded company to own 10% or more of his stocks.

111

LIST OF PROCEEDINGS

United States Court of Appeals for the Second Circuit
No. 18-1204
Diane Smith Carusos, as Heir-at-Law to The Estate
of Dorothy Lang Smith, Deceased, Plaintiff-Appellee,
v. Noel L. Smith, MD., Defendant-Appellant.
Opinion Date: July 27, 2018
Rehearing Denial Date: January 11, 2019

United States District Court Southern District
of New York
Docket No. 17 Civ. 7644 (AT)
Diane Smith Carusos, as Heir-at-Law to the Estate of
Dorothy Lang Smith, Deceased, Plaintiff, v. Noel L.
Smith, MD., Defendant.
Date of Final Order: April 12, 2018
Order Denying Reconsideration: August 10, 2018

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
RULE 29.6 STATEMENT

ii

LIST OF PROCEEDINGS

iii

TABLE OF AUTHORITIES

vi

OPINIONS BELOW

1

JURISDICTION

2

STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF FACT AND
PROCEDURAL HISTORY

3

SUMMARY OF ARGUMENT

9

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

10

APPENDIX TABLE OF CONTENTS
Order of the Second Circuit
(July 27, 2018)

la

Mandate of the Second Circuit
(November 30, 2018)

3a

Order of the District Court of New York
(April 12, 2018)

5a

Order of the District Court of New York
(August 10, 2018)

7a

V

TABLE OF CONTENTS — Continued
Page
Order of the Ditrict Court of New York
(November 6, 2017)

9a

Letter Motion: Request for Extension of Time and
Order of the District Court of New York
lla
Denying Motion (November 3, 2017)
Order of the District Court of New York
(October 24, 2017)

14a

Order of the District Court of New York
(October 13, 2017)

16a

Order of the Second Circuit Denying Petition for
Rehearing En Banc (January 11, 2019)
18a
Cross-Motion for Order Denying Plaintiffs SelfStyled Remand Motion and Sanctioning
Plaintiff and/or Nora Bushfield, Esq. Under
Rule 11 of the Fed. R. Civ. P. and Granting
Other Appropriate Relief
(November 13, 2017)
19a
Defendant Noel L Smith, Pro Se's Affirmation in
Support of Defense Cross-Motion for Order
Denying Plaintiffs Self-Styled Remand Motion
and Sanctioning Plaintiff and/or Nora Bushfield, Esq. Under Rule 11 of the F. R. Civ. P.
Appropriate Relief
23a
(November 13, 2017)

vi
TABLE OF AUTHORITIES
Page
CASES
Foster v. Chatman,
578 U.S.
(2016)

12

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I

9, 11, 15

U.S. Const. amend. IV

9, 11, 15

U.S. Const. amend. V

9, 11, 15

STATUTES
28 U.S.C. § 1254

2

28 U.S.C. § 1291

2

28 U.S.C. § 1332

2

28 U.S.C. § 1446(a)

i, 3, 4

28 U.S.C. § 1447(c)

i, 3, 5, 9

JUDICIAL RULES
Sup. Ct. R. 29.6

ii

1

OPINIONS BELOW
The Opinion of the United States Court of Appeals
for the Second Circuit (USCA2 hereafter) was issued
on July 27, 2018. (App.1a). The Orders of the United
States District Court for the Southern District of New
York were issued on April 12, 2018 (App.5a) and
August 10, 2018. (App.7a).
In this proceeding the Court below has only one
false opinion to be reversed by this U.S. Supreme
Court that it could make the false finding of fact that
Respondent Diane Smith Carusos had complied with
the Court's prior orders to timely file her motion to
remand this case from the United States District
Court for the Southern District of New York (SDNY)
to the Superior Court of Lumpkin County, State of
Georgia. Such motion was never made as a matter of
law in that Defendant-Respondent Carusos admitted
that she had never served any motion to remand on
Plaintiff as conspicuously ordered by the Court prior
to a specific deadline. Plainly, the Court unlawfully
granted more than 6 months after the deadline
Defendant's purported motion to remand that was
never made in that it had never been served on her
adversary, the plaintiff-petitioner herein. Being on
appeal from the SDNY, the United States Court of
Appeals for the USCA2 willfully overlooked this
material issue and arbitrarily dismissed PlaintiffPetitioner's appeal without any rational explanation.

2

JURISDICTION
A timely petition for rehearing was denied by the
USCA2 on January 11, 2019. Petitioner timely filed a
petition for writ of certiorari on April 11, 2019. By a
letter dated June 26, 2019, the Clerk of Court granted
Petitioner 60 days by which to re-file a petition
compliant with Sup. Ct. R. 33.1. The U.S. District
Court has jurisdiction over this civil action pursuant
to 28 U.S.C. § 1332. The Final decisions of the U.S.
District Court is pursuant to 28 U.S.C. 1291. The order
of U.S. Court of Appeals is pursuant to 28 U.S.C. § 1254.

STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 1446(a)
A defendant or defendants desiring to remove any
civil action from a State court shall file in the
district court of the United States for the district
and division within which such action is pending
a notice of removal signed pursuant to Rule 11 of
the Federal Rules of Civil Procedure and
containing a short and plain statement of the
grounds for removal, together with a copy of all
process, pleadings, and orders served upon such
defendant or defendants in such action.

3

28 U.S.C. § 1447(c)
A motion to remand the case on the basis of any
defect other than lack of subject matter jurisdiction must be made within 30 days after the
filing of the notice of removal under section
1446(a). If at any time before final judgment it
appears that the district court lacks subject
matter jurisdiction, the case shall be remanded.
An order remanding the case may require payment
of just costs and any actual expenses, including
attorney fees, incurred as a result of the removal.
A certified copy of the order of remand shall be
mailed by the clerk to the clerk of the State court.
The State court may thereupon proceed with such
case.

STATEMENT OF FACT AND
PROCEDURAL HISTORY
1. In substance, as shown on court records [especially, Defense Motion for Dismissal Order: SDNY Case
No. 17-Civ-07644-AT-DE #5], and the face of the
SDNY's October 13 2017 Order [SDNY-DE #4 or A:19
Annexed hereto], Plaintiff Diane Carusos sued
Defendant Noel Smith, M.D., in the Superior Court of
Lumpkin County, State of Georgia, for frivolously
alleged non-compliance with the terms of an alleged
Stipulation and Agreement of the parties that had
supposedly been signed in another unrelated State
Court, to wit: the Probate Court of Lumpkin County,
over which the Superior Court of Lumpkin County
had no appellate jurisdiction as a matter of law.

4

Plaintiff Carusos did so because the Probate Court did
not find that Appellant herein had violated any agreement between them.
Glaringly, the action, if any, was designed to
harass Defendant-Appellant herein, a practicing 76
year old New York City physician, having absolutely
nothing to do with Georgia, to unlawfully and unfairly
compel me to quit my job, travel to Georgia, retain an
attorney at law to defend myself against causes of
action that are meritless on their face.
Thereafter, Defendant-Appellant Noel Smith
herein had timely and duly complied with all the
requirements set forth by 28 U.S.C. Sections 1441 and
1446 to remove the foregoing State Court action to the
SDNY based on Diversity Jurisdiction. [DE #1 dated
10/5/2017]
On or about October 13, 2017, SDNY Judge
Torres issued an Order (incorrectly) stating that:
"Under 28 U.S.C. Section 1446(a), removal
from state to federal court is only proper "in
the district court of the United States for the
district and division within which [the state]
action is pending." Here, the state action is
pending in the Superior Court of Lumpkin
County, Georgia. Defendant's removal to the
United States District Court for the
Southern District of New York therefore runs
afoul of Section 1446(a). The state action may
only be removed to the United States District
Court for the Northern District of Georgia
(Gainesville Division)". [Emphasis added]
[See, Court Order, DE #4—or A:19]

5

As a result of the foregoing glaringly incorrect
legal reasoning, the Court [absurdly] ordered that the
underlying proceeding be remanded not to the
Northern District of Georgia (Gainesville Division),
but without any legal basis to the Superior Court of
Lumpkin County. [See, Court Order, DE #4 or A:19]
Defendant-Appellant herein timely moved the
Court for reconsideration upon my contention that the
Court's said Order was erroneous as a matter of law,
justice, due process, and judicial economy and a
glaring violation of Defendant's fundamental civil right
to due process. [See, SDNY Case No. 17-Civ-07644AT-DE #5-10/23/2017].
Within 24 hours of filing with the SDNY of
Defendant's said Motion for Reconsideration, and well
before its return date of November 17, 2017, Judge
Torres GRANTED defense Motion for Reconsideration
on October 24, 2017, and directed that "Under 28 U.S.C.
Sec. 1447(c), Plaintiff has until November 6, 2017 to
file a motion to remand on the grounds that removal
is procedurally improper." [DE #6 or A:18]
On November 3, 2017, Plaintiff Carusos wrote
a letter to the Court, asking for an extension of time
to make the motion to remand. [A:14-15] The Court
denied it and repeated that Plaintiff had till November
6 to file the motion to remand. [A:16]
On November 6, 2017 the SDNY issued an order
misstating that Plaintiff had filed a motion to remand
and directed Defendant to file my opposition paper
and Plaintiff to reply. [A:17]
On November 15, 2017, Defendant-Appellant
herein filed my opposition paper being entitled "Notice

6

of Defense Cross-Motion for an Order Denying Plaintiff's Self-Styled Remand Motion" [A:20-31], in which
Defendant-Appellant mainly pointed out and insisted
that in fact there was no such motion as a matter of
law since Plaintiff had never served Defendant with a
copy of the purported motion. [A:20-31]
Ever since, Plaintiff Diane Carusos has failed
to contest defendant's claim that no motion to remand
had ever been made as a matter of law by Plaintiff in
compliance with Judge Torres's October 24 and
November 3, 2017 Orders [A:18 & 13]. As such, Plaintiff
admitted that she had never served any motion to
remand upon Defendant on or before the November 6,
2017 deadline.
Ever since, Judge Torres has never ruled that
in spite of the lack of service of motion upon defendant,
there was a valid motion to remand having been filed
by Plaintiff Carusos in full compliance with the
Court's October 24 and November 3 2017 Orders [A:18
& 13].
Notwithstanding the above, more than 6
months following the deadline of November 6, 2017 to
file Plaintiffs motion to remand, on or about April 12,
2018 Judge Torres issued sua sponte her FAKE or
FICTITIOUS Order unlawfully granting Plaintiffs nonexisting Motion to Remand by making an intentionally
and materially false finding of fact that "Having heard
from both parties, ECF Nos. 11, 13, 14, 15, 16,
Plaintiffs motion to remand is hereby GRANTED.
[DE #17 or A:13] [Note: "Having heard from both
parties" was a contemptible material misrepresentation
of fact, since the Court had neither heard nor seen
anything from Plaintiff Carusos herself or her attorney

7

Nora Bushfield as a matter of law, except an informal
letter to the Court seeking an enlargement of time to
serve and file such motion to remand, [A:14-16] a copy
of which was admittedly never served upon Appellant
herein, and was denied by the Court [A:16].
Defendant-Appellant herein timely filed an
appeal to the USCA2 from Judge Torres's said FAKE
order. [DE #18 Dated 4/23/2018]
[Note: The order was intentionally fake because Judge Torres knowingly made the false material
finding of fact that there was a motion to remand,
while the Court knew with absolute and undisputed
certainty that there was none as a matter of law.]
On or about July 27, 2018 the USCA2 dismissed Appellant's appeal without any explanation
regarding the merit of any issue presented. [A:11-12].
Appellant moved the USCA2 for panel reconsideration and/or reconsideration en banc.
On or about November 30, 2018 a three-judge
Panel of the USCA2 affirmed the Court's July 27 2018
Dismissal Order of Appellant's appeal with one contemptibly single easy false statement that my appeal
"lacks an arguable basis in law or in fact" without one
single word of explanation regarding why the SDNY
could have granted a motion that had never existed as
a matter of law [A:2-3].
On or about January 11, 2019 the USCA2
again dismissed Appellant's Motion for Reconsideration
en bane without absolutely any explanation at all,
regarding any issue being raised, especially why the
SDNY could have granted a motion that had never
existed as a matter of law [A:2-3].

8

As such, both appellant's motions were denied
without any explanation or reasoning.
Note: A conclusory statement that appellant's
appeal is dismissed for lacking arguable basis in law
or in fact without saying a word explaining how it is
so is merely a despicable lie made by corrupted and/or
biased and/or incompetent judges or law clerks that
should be removed from offices or brought to justice
for perjury, corruption and/or egregious incompetence.
Obviously, Appellant presents absolutely meritorious argument in favor of my appeal in the USCA2
showing that the SDNY's orders being appealed are
absolutely meritless and criminal in nature, in that
the Court had maliciously disguised under the label of
an "order to remand" to escape the appellate power of
the USCA2, while there was absolutely no motion by
Plaintiff-Appellee to reconsider the SDNY's October 24,
2017 Order [A:18] vacating the remand.
It is further of note that, even, had the SDNY's
April 12, 2018 Order granting remand [A:13] been a
sua sponte order by the Court, then it would still have
been well too late for the Court to do so. Indeed, about
6 months had passed since November 6, 2017 when
the SDNY itself conspicuously imposed by written order
the deadline to file a motion to remand.
Finally, undisputedly, on the face of the Order
itself [A:13] the Court never mentioned any circumstance warranting such late grant of remand in violation of 28 U.S.C. Sec. 1447(c) imposing the 30-day limit
for a concerned party to move the Court for remand.

9

SUMMARY OF ARGUMENT
The USCA2's dismissal without any discussion of
Plaintiff-Petitioner's appeal from the order by the
SDNY granting remand of Plaintiffs action from the
SDNY to the Superior Court of Lumpkin County, State
of Georgia, while knowing that such motion for remand
that had been conspicuously and strongly ordered by
the court to be made within a specific deadline had
admittedly never been served upon Plaintiff, is irrational and arbitrary and must be reversed by this
Court based on the USCA2's egregious willful violation
of Plaintiff-Petitioner's fundamental right to due
process under the 1st, 4th and 5th Amendments to the
U.S. Constitution.

REASONS FOR GRANTING THE WRIT
The facts and circumstances of this case glaringly
show that:
The United States Court of Appeals for the
Second Circuit [USCA2 hereafter] has entered a decision in conflict with its prior decisions and those of
other United States Court of Appeals on the same
important matter in that the Court has so far departed
from the accepted and usual course of judicial proceedings, or sanctioned such a departure by a U.S.
District Court, as to call for an exercise of this U.S.
Court's supervisory power;
The United States Court of Appeals for the
Second Circuit has entered a decision in conflict with
its prior decisions and those of other United States

10

Court of Appeals on the same important matter in that
the Court has decided an important question of federal
law that has not been, but should be, settled by the
U.S. Supreme Court, or has decided an important
federal question in a way that conflicts with relevant
decisions of this U.S. Supreme Court.

CONCLUSION
Viewing the foregoing undisputed facts on court
records, it is most heart-breaking to notice that like
many other cases, both the SDNY and the USCA2 have
been engaged in judicial organized crime activities in
that the Court would issue FAKE (*) Orders and
egregiously violate litigants' constitutional right under
the Fourth or Fifth Amendments to due process or even
under the First Amendment to have their grievances
resolved justly and peacefully in a court of law.
It is of note (*) that "Fake" Orders, like in this case,
mean orders being granted by judges upon a party's
motions being supported by undisputedly false findings
of fact and/or controlling legal authorities that the
issuing Judge knows or should have known to be false,
but intentionally ignores by granting relief based on
knowing egregious misrepresentations of fact, or
incorrect citations of controlling legal authorities, or
without any rational explanation at all. The sole purpose of the FAKE orders being issued by a judicial
member of a Judicial Organized Crime (JOC) unit is
to assist their non-judicial member(s), to convert
assets of their victims, or not to be liable for meritorious

11

causes of action that their adversaries had brought
against them.
As such, in this case, all that Petitioner herein
could do is pointing out the undisputed criminal acts
of the issuers of the fake orders of which I am victim
and hope that this United States Supreme Court or
some concerned legal or political authorities with both
competence and a conscience would intervene and
restore justice in America.
Undisputedly, these criminal activities should
not be ignored by concerned authorities but brought
out to justice. Fortunately, there seems to be some
light of hope at the end of the long dark tunnel Appellant herein has been subjected to. Indeed, on or about
Wednesday March 20, 2019 Justice Clarence Thomas
broke his three-year silence at the U.S. Supreme Court
by asking questions during arguments in a racial
discrimination case involving a black man who has
faced six trials for a quadruple homicide in the 1990s.
The case concerns Curtis Flowers, who was convicted
of the killing in Mississippi only after five trials either
deadlocked or resulted in overturned convictions,
including for racial discrimination and prosecutorial
misconduct. The justices are reviewing whether district
attorney Doug Evans, who prosecuted Flowers over
more than a decade, violated the Constitution by
excluding black jurors. Justice Thomas's question concerned whether any white jurors were also excluded.
"Were any peremptories exercised by the defendant?"
the Justice asked Sheri Lynn Johnson, Flowers'
attorney, referring to challenges to potential jurors.
When she said that there were challenges, Justice
Thomas asked: "And what was the race of the jurors

12

struck there?" Johnson said that the trial attorney
defending Flowers had only struck white jurors. Evans
had struck five potential black jurors, leaving only one
black juror on the 12-person panel. The Justice's
questions and previous votes suggest that he could
vote against Flowers in the matter. He was the lone
dissenter in a similar 2016 case, Foster v. Chatman.
In that case, the court found that prosecutors had
unlawfully struck black jurors from a murder trial of
a black man in Georgia. A decision in the case is
expected by late June 2019. Flowers, who is currently
on death row in Mississippi, is asking the justices to
overturn his conviction. Note: The information regarding the foregoing event in SCOTUS on 3/20/2019 was
provided on-line by Tucker Higgins of News Associate
and various reliable media.]
The foregoing shows that the Justices are extremely
keen of litigants' constitutional right to due process. It
may certainly not be said that a court of law is free to
assist a non-judicial member of their JOC unit by
granting favorable judgment based on knowing lies
and claiming that the court of appeal had no subjectmatter jurisdiction over issues that were not directly
raised on appeal.
Obviously, it does, unless it is part of the JOC unit
continuing the egregious criminal pattern of judicial
misconduct the lower courts have been following.
MODERN METHOD OF CONTROLLING AND
FIGHTING AGAINST JUDICIAL ORGANIZED CRIME
IS COMING VERY SOON
It is of judicial notice that the modern-day use of
DNA evidence has solved many criminal cases that
would not have been solved before. Upon information

13

and belief, those judges, prosecutors or court clerks
who are currently engaging in JOC activities should
be aware that very shortly AI (Artificial Intelligence)
will be the weapon of choice to defeat their activities
they believe extremely difficult to detect.
Indeed, AI is a true marvel in that it allows
computers to read masses of data no humans can read
in their lifetime and process them intelligently to
predict the future, or, in cases of litigations, determine
the patterns of judges' misconduct, and as such, not
before long, all or almost all judgments and court
records of all cases would be read and digested, and
any pattern of JOC activities will be determined. Any
judge doing anything wrong would be disclosed and
prosecuted.
Upon information and belief, AI robots can
certainly be instructed on the methods to detect crimes
being committed by judges or prosecutors through their
FAKE ORDERS and INJUNCTION ORDERS. AI can identify
quickly all those criminal judges and get them
indicted with high probability of conviction. AI will be
perfect to detect what may be called Judicial
Organized Crimes (JOC) activities and clean up the
corrupted American Justice System and eliminate all
crimes in America, then in the entire world. That's
what the Chinese Communist party are trying to do
right now, except that their most fundamental rules
to define truths and administrate justice are not those
that can be universally satisfactory and accepted.
The main issue in this appellate proceeding is not
per se the subject-matter jurisdiction of the higher
court over the nature or content of the lower courts'
decisions regarding issues of fact, but rather also the

14

method by which the courts have followed to reach the
final decisions in the matter being appealed. Those are
procedural rules that a court must follow to respect
litigants' constitutional right to due process.
In this case the USCA2 has egregiously failed to
scrutinize the unlawful way(s) SDNY Judge Analisa
Torres had reached her conclusions of law in her final
judgments, being appealed, which way(s) have led to the
USCA2's failure to carry out justice, and undermined
criminally all the administration of justice in America.
WHEREFORE, For all the foregoing reasons and
authorities, Petitioner herein respectfully requests
that this Supreme Court of the United States of
America grant my Petition for a writ of certiorari in
this case, where the U.S. Court of Appeals for the
Second Circuit has egregiously disregarded my constitutional rights to the First, Fourth and Fifth
Amendments without any valid ground or rational
explanation at all.

Respectfully submitted,
NOEL L. SMITH, M.D.
PETITIONER PRO SE
325 BROADWAY — SUITE 204
NEW YORK, NY 10007
(212) 385-3736
APRIL 11, 2019

